August 3, 2009


Memorandum for:        The Federal Co-Chair
                       ARC Executive Director

Subject:               Inspection Report on ARC’s Grant Management



This report is the second report to review ARC’s grant management processes. The first report
was an audit report, and was issued during April of 2008 (Report 08-09) to address weaknesses
discovered in ARC’s grant management system. This report, an inspection report, addresses
grant policies and procedural concerns. There remain a few issues which will be reviewed next
fiscal year when arrangement for an attorney for the OIG have been finalized.

The report has seventeen recommendations which concern management supervision of grant
staff, planning for grant monitoring activities, administrative requirements, metric data, and file
maintenance and security. ARC management has agreed to address 16 of the 17
recommendations in its creation of a new grants management manual, but believes ARC’s
supervisory oversight process are appropriate for its operations and did not agree with
recommended changes. We remain hopeful that the new manual will prescribe supervisory
oversight procedures which could address our concerns for this recommendation.

We consider management’s responses acceptable, pending verification of implementation by the
Commission. Once implemented, we will close all recommendations that are satisfied with the
issuance of the manual.




Clifford H. Jennings
Inspector General

Attachment
                Office of Inspector General


Inspection Report on the Appalachian Regional Commission's
                    Grant Management




                     August 3, 2009




                   Inspection Report 09-03
                                                        Table of Contents

Results in Brief .............................................................................................................       1

Background ..................................................................................................................        2

Objectives, Scope and Methodology ...........................................................................                        3

Findings .........................................................................................................................    4

Recommendations……….............................................................................................                      13

Example, Elements of a Written Monitoring Plan ................................................... Appendix A

OMB Standard Form, Performance Progress Report ............................................. Appendix B

Agencies Codifying the Grants Management Common Rule .................................. Appendix C

Management Response to Inspection Report ............................................................ Appendix D
                                                      Results in Brief


Providing grants to the Appalachian Region to improve life for the residents of Appalachia was the reason
for the creation of the Appalachian Regional Commission (the Commission or ARC) and for its continued
existence. The effectiveness of grants made by the Commission and the administration of those grants has
a direct impact on the life and livelihood of Appalachia's residents.

What we found was that the Commission procedures appear to provide for an adequate level of
documentation and uniformity in applications so that appropriate decisions concerning the funding of
grants can be made. However, the administrative piece of grant oversight, the review to ensure project
progress, success and compliance with grant requirements needs improvement. To that end, this report
identified three major areas, and several related sub-areas which could be improved.

ARC grant managers are generally given a large amount of autonomy and empowered to use their
discretion in the monitoring of grants. We were told on separate occasions that ARC has good grant
managers1 and that most have expertise in the field of operations for which they have been assigned grant
oversight responsibility.

We observed that few formal internal policies for grant administration are directed toward providing
instruction to grant managers. Grant managers must rely on discussions with management and formal
government-wide policies and ARC grantee requirements for their determination on how to handle grant
issues. In addition, little training for administration of grants is provided and training taken is usually
related to grant managers’ individual fields of expertise or for their general knowledge. Other areas and/or
specific items which could improve grant operations include: use of formal monitoring plans, a greater
focus on grant administrative requirements, the development of a lessons learned data base, which would
help track “high risk” grantees, greater attention to improving the usability and accuracy of metric data,
and improving file security and maintenance.

In summary, improved documentation of actions taken and of monitoring activities coupled with
enhanced supervisory oversight would go a long way to resolving many of our more important concerns.
Our report issues seventeen recommendations covering grant oversight, documentation, organization and
file security, which when implemented should improve grant operations.




1
       The terms grant manager, program manager, project coordinator,  project manager  or coordinator are used interchangeably 
 in ARC documents, in discussions with ARC personnel and in this document. The terms are used to refer to employees performing  
grant oversight and monitoring activities. 

                                                                ~ 1 ~ 
                                                     BACKGROUND

The Appalachian Regional Commission is a cooperative partnership of Federal and State governments
legislated by congress in the Appalachian Regional Development Act of 1965 (ARDA). The Commission
was established to improve the lives of people living in Appalachia, primarily through fostering economic
growth and development. Congress provides funding to the Commission to make grants benefiting a
thirteen state region encompassing Appalachia.

ARC grants fall into two main groups, administrative grants for the local development districts (LDD’s)
and other types of grants for business development, water and wastewater improvements, infrastructure
development, education, health, leadership development, and telecommunications. Most ARC grantees
are either divisions of states, their political subdivisions, or nonprofit organizations. One of ARC's largest
grantee groups are local development districts (LDDs), consisting of a network of multi-county planning
and development organizations, whose role is to identify the priority needs of local communities, and
develop plans for those needs and for economic development. At the end of FY 2008, there were 72 local
development districts which were eligible for ARC funding and there were 626 LDD grants totaling $42
million. An additional 1261 grants with funding of $320 million were outstanding for other purposes.2

ARC's grant management staff 3 consists of the Program Operations Division (POD) operated by a
Department Director and 9 Project coordinators, 3 administrative staff and 1 intern. In addition to POD,
the Regional Planning and Research Division also manages grants. The Regional Planning and Research
Division currently has one Director and 4 other individuals involved in grants management. LDD grants
are managed from under the Office of the Executive Director by the LDD Director, with no other staff
specifically assigned. ARC's General Counsel’s Office issues the grant contracts and becomes involved in
grant revisions (and/or some extensions) and other grant issues that need higher level involvement.

ARC’s grant oversight activities takes two forms; ARC manages grant oversight activities itself or can
provide funding to other agencies (basic agencies (BA)) which will oversee the grants on behalf of ARC.
ARC sometimes monitors or is marginally involved in the monitoring activities of BA grants. Outstanding
BA grants at the end of FY 08 were approximately $225 million for 684 grants.

Grant activities performed by ARC coordinators include: corresponding with grantees and state personnel
concerning grant applications and funding; recommending grants for approval of funding and establishing
associated benchmarks; monitoring of grantee activities through discussions, reports, e-mail, and other
media; approval of disbursements and close-out activities. ARC Coordinators also maintain the grant file,
containing all correspondence and documents related to the grant. Throughout the entire process,
coordinators are charged with providing the grantee advice to help them obtain their goals and to ensure
compliance with ARC policies, OMB circulars, the grant contract, and other requirements.




2
   The number and dollar amount of grants outstanding do not reflect ARC’s revolving loan funds, which were not examined for this  
inspection. 
3
    For POD staff, we listed only three categories of employees and made a judgment about the best category in which to list them. 
                                                                ~ 2 ~ 
                                Objectives, Scope and Methodology

The OIG initiated an audit of grant management guidance in June 2007 at ARC's office in Washington,
DC. As the audit progressed it became apparent that immediate action was needed to address weaknesses
in ARC's grant management system, ARC.net. Accordingly, it was decided to split the audit activities into
two parts. The first part was to audit and work with management on resolving the issues of ARC.net. The
results of the grant management system audit were released in April of 2008. The second part of the audit,
later modified to an inspection for expediency, concerns the effectiveness of grants management, i.e.,
grant oversight and monitoring activities. The inspection of grant management began following the
release of the audit of ARC.net (OIG report 08-09), with inspection field work completed in January of
2009.

The objectives of the inspection were to identify applicable requirements and practices that were in use by
ARC's grant managers to provide oversight of grantee activities, and to determine their effectiveness in
controlling ARC's grant program. We also identified rules, regulations, and best practices for possible use
by ARC.

For a review of grant activities encompassed by the grant cycle, we selected recently closed grants. Grants
selected included those closed between the period July 2007, and March 31, 2008. From this list we
extracted the largest grants, then reviewed the grant list to judgmentally capture 50 grants from the
various managers, encompassing all the Appalachian states and a variety of grant activities. To expedite
our inspection work and because of the repetition of findings, we reduced the sample selected to 30
grants, while maintaining the selection criteria.

To understand ARC’s grant management process, we met or had discussions with department
management and/or personnel from various departments: from the Program Operations Division (POD),
the Project Control Officer, some project coordinators, and the Director; from the Office of the Executive
Director, the LDD Grants Director; the Director of Regional Planning and Research; and ARC’s General
Counsel. Topics included: ARC legislation, the ARC Code, project guidelines, applicable policies and
procedures, how priorities and metrics are established, how grants are monitored, and how grants are
received, processed, filed and stored. We also reviewed with directors their applicable policies and
practices, training programs, methods of departmental oversight, and review of grants. In addition, we
initiated e-mail correspondence with the grant staff to obtain information about training and on-site visits.
Discussions were held with the finance department office to discuss grant disbursement and close-out
procedures.

Coordinators in the Program Operations, Research, and LDD Divisions (the division director) manage
most of the grants not under the control of a basic agency. Our inspection of grant monitoring activities
focused primarily on the grant files of ARC which provide the written documentation of the coordinator's
efforts. At times, some of the documentation expected to be found in the file was not found or was
incomplete. Extensive/detailed searches often had to be undertaken within the file to locate missing or
incomplete documentation, but because of the different forms the documentation could take (for example,
post-it-notes) and the lack of indexes or appropriate “tabs,” we accepted what was found (or did not find).




                                                    ~ 3 ~ 
                                                              Findings
Preface

Our report presents four findings, the first three of which concern matters affecting the quality of ARC’s
grant management oversight and the last which concerns compliance with federal requirements. The
findings discuss 1) monitoring activities, 2) reporting and tracking of program results and 3) file
documentation, organization and storage. The report’s last finding concerns OMB’s administrative
requirements for Governments. Causal factors for all findings relate to policies, supervision and training.
Underlying these direct causes is management’s belief in the quality of its staff to perform the needed
oversight with an emphasis on program results over administrative requirements.4


Finding 1- Monitoring Activities
ARC’s grant monitoring policies, supervisory oversight activities, and training requirements allow a wide
range of employee discretion. ARC management relies on its grant management staffs’ expertise to ensure
adequate grant oversight. However, this autonomy causes inconsistencies in ARC responses and
encourages grant managers to handle difficult problems that might otherwise be referred to management
for decisions. While this may not be a problem, there is no documentation in our sample to show what
was or was not discussed with management.

ARC provides no written policies for grant managers that tell them how contract violations or other issues
should be handled and therefore there is little uniformity in ARC responses. Examples of issues that could
be addressed include: the policies for different grantee notifications and/or requirements for responding to
grantee inquiries, what violations, types of projects, lack of program successes, program changes, or lack
of reports should cause grant managers to seek more written details, or to cease approving disbursements,
or to cause on-site visits to be planned, etc…, or what issues should trigger a referral to management
and/or the General Counsel’s office. Instead of being able to reference internal policies for assistance,
grant managers must rely on their own experiences and knowledge of government-wide policies and ARC
grantee requirements for their determination on how to handle grant issues.

The Director of ARC’s largest grants department, POD, appears to be “stretched too thin.” He has no
assistant director, is responsible for daily departmental oversight, reviewing coordinator grant approvals,
reviewing certain grant payments and extension requests, and has his own grant monitoring
responsibilities. Another staffing problem mentioned by ARC management and staff is that since the mid
1980s when ARC was downsized, grant oversight abilities were reduced and were never returned to prior
levels. Currently, supervision of POD employees consists of weekly staff meetings, discussions, and
annual employee evaluations. Supervision focused on every day coordinator activities would help to
improve oversight.


4
     A contract auditor used by our office stated: “Our experience with ARC grantees is that ARC is primarily concerned with program 
results and compliance with the grant agreement appears to be secondary. For example, each grant agreement has Part II: General 
Provisions attached (as part of their grant contract), but sometimes grantees don’t appear to be aware of them or at least they are not 
emphasized. We’ve also seen many instances of grant agreements being modified after the fact (by ARC), usually justified based of the 
success of the program.” “To summarize, we feel that it is the nature of most grantees to be primarily focused on their programs, with 
accounting and compliance issues being secondary, unless discipline is imposed externally by the grantors.”
                                                                  ~ 4 ~ 
In addition to POD, there are two other divisions overseeing grant activities, the LDD division and the
research division. Neither of these divisions have ongoing supervisory reviews of grant management
activities, nor do they issue grant monitoring policies. For all grant activities, no one person has been
assigned to develop and oversee administration of internal grant policies to provide for supervisory
oversight.

Regarding training, ARC has no training requirements for upgrading the skills or knowledge of its
coordinators in the application of federal and ARC administrative requirements or to improve their grant
management skills. Most training taken by coordinators is to improve their knowledge related to their
field of expertise or for their general knowledge.

Below, we have provided topics (detailed later) from operational grant areas or activities which we
believe could be improved.

     (1)   Formal grant monitoring plans
     (2)   Coordinator supervision
     (3)   Training requirements
     (4)   On-site visits
     (5)   Budget and/or programmatic changes
     (6)   Tracking specific program/grantee results
     (7)   ARC supervisory and OIG contact information

♦ Formal grant monitoring plans
           During our inspection of 30 grants, we noted several grants where documented contact with the grantee was
           minimal and one grant which may have included just the processing of documents. Written monitoring
           plans help to ensure grants progress as planned and problems are known, engaged and resolved. Best
           practices suggest the need for a written monitoring plan; we noted that several federal and state agencies
           have either developed monitoring plans or require their development.5 For an example of the elements
           contained in a written monitoring plan, see Appendix A,6 which was written as part of an audit for one of
           the Justice Department’s Grant Programs.

♦ Coordinator Supervision
           ARC does not have written supervisory oversight policies. The Research7 and LDD divisions provide no
           oversight of grant administration and POD activities are limited. POD’s policies consist of weekly staff
           meetings, the Director's “Open Door” policy, and year end performance reviews. ARC management does
           not conduct in process reviews/evaluations for the effectiveness or propriety of its grant administration and
           there is no review for compliance with ARC and/or federal requirements. File review appears to be on an
           exception basis.




5
         In a quick review for internet citations of directives or plans for monitoring, we found that OSHA, the Department of Justice, the  
Virginia Department of Education and North Carolina (from the Office of the State Auditor) all require the use of monitoring plans. 
   
6
    U. S. Department of Justice, Office of Inspector General, Audit Report No. 04‐40, Office Of Justice Programs Technical  
Assistance And Training, Appendix 12, (September, 2004), p. 2, http://www.usdoj.gov/oig/reports/OJP/a0440/app12.htm 
 
7
        The Director of the research department stated that he relies totally on POD for grant policies and oversight; the Director of POD  
said that aside from the initial reading of the write‐up for grant approval, he has no involvement in the handling of research grants.  
                                                                     ~ 5 ~ 
♦ Training requirements
         ARC does not specify training program requirements for its grant personnel. Most training provided relates
         to grant personnel’s area of expertise or to their general knowledge; training is not being taken to improve
         grant personnel’s knowledge of ARC rules or federal regulations. Under federal acquisition regulations for
         contract administration, all contract administrative personnel are required to undergo training.
         Unfortunately for grant contracts administration, the same rules have not been instituted. Deficiencies in
         training requirements, coupled with the exceptions noted in this report indicate the need for more training
         in ARC and federal requirements and procedures.
♦ On-site visits
         Documents supporting the analysis of the need for site visits, and documents for their planning and the
         results of site visits (if site visits are determined appropriate) are not created. ARC’s site visits, as described
         by the POD Director are to, “meet and greet,” but are not an on-site review of the grantee’s activities or
         systems, and no written site visit plans or documentation concerning the results of the visit are created.8
         On-site visits are normally a tool of effective grant oversight and can include direct observations of grantee
         activities, interviews with key grantee staff (and contractors), financial and budget reviews, file reviews,
         and employer verification. In addition, the review should generate documentation of results and plans for
         corrective action, perhaps even grant modification proposals.9
♦ Budget and/or programmatic changes
    We noted that 3 of the 30 grants reviewed, 10%, had changes to the budget and/or programmatic changes
    to the project which were not properly approved.10 We did not see any formal approval of budget or
    programmatic changes in any of these grants. In two of the grants there was some discussion of the
    changes, in the remaining grant the Coordinator was not involved and made no inquiry. Without the
    involvement of the Coordinator, ARC has no say over how federal funds are spent, the path to project
    completion, or the related results.
♦ Tracking specific program/grantee results
         OMB’s administrative requirements for Grants and Cooperative Agreements of State and Local
         Governments, Circular A-102 (the prior attachments (PA)), discusses identification of “high risk” grantees.
         High risk grantees can be identified through tracking of grantee activities; management discussed
         incorporating a “lessons learned” database into ARC.net to provide this functionality. Currently, ARC does
         not track grantee characteristics or maintain a “lessons learned” database and there are no classification
         efforts, except for a listing of the 50 most delinquent grantee reports compiled for the annual financial
         statement audit. ARC needs to develop a “lesson learned” capability to know what’s working and why.
         High risk grantee characteristics should be tracked and are listed in OMB Circular A-102 (PA).11


8
    ARC conducts annual follow‐up “Validation Visits,” for some 40 to 60 preselected projects, six months to one year after a project has 
been closed. These visits usually last 1 ½  to 3 hours and are primarily conducted, per ARC’s  2008 Fact Sheet provided to grantees,  to  “ 
review project performance, successes, challenges, and lessons learned.” These reviews do not provide for an intensive review of data, 
financial information is not needed, and non‐financial items are not required but requested. The results of these meeting are documented. 

9
      U.S. Department of Labor/VETS, VETS Competitive Grants Expert Team, “On‐Site Monitoring/Technical Assistance Visits,” Competitive 
Grantees Training Conference (Denver, CO, August 8‐11, 2005), http://www.dol.gov/vets/programs/hvrp/monitoringpresentation.pdf 
 
10
      Generally, OMB’s administrative requirements, Circular A‐110 and Circular A‐102, as well as ARC’s grant contracts and Grant  
Administration Manual, require adherence to approved budgets and programs. Prior approvals for budget and program changes are  
required by OMB and/or ARC.   
 
11
      The PA  discussed federal grant making agencies identification of  high risk grantees and provided other administrative  
requirements but was dropped in favor of an agency codification of these rules. However,   ARC has not adopted the PA  as   required in  a  
presidential order of March 12, 1987, although some of the  PA requirements exist in ARC's standard grant contract language and other 
guidance. 
 
                                                                   ~ 6 ~ 
Per OMB, grantees may be considered ‘high-risk' if they exhibit any of the following characteristics:

                  …a grantee or subgrantee (1) has a history of unsatisfactory performance, or (2) is not
                  financially stable or (3) has a management system which does not meet the management
                  standards set forth in this part, or (4) has not conformed to terms and conditions of previous
                  awards, or (5) is otherwise not responsible.

The administrative tools provided by OMB to minimize the risk from these grantees include:

                  (1) Payment on a reimbursement basis; (2) Withholding authority to proceed to the next
                  phase until receipt of evidence of acceptable performance within a given funding
                  period; (3) Requiring additional, more detailed financial reports; Additional project
                  monitoring;(5) Requiring the grantee or subgrantee to obtain technical or management
                  assistance; or (6) Establishing additional prior approvals.

♦ ARC supervisory and OIG contact information
       A best practice is the inclusion of supervisory contact information in grant documentation provided the
       grantee. We also would like to suggest that OIG contact information be included in the grant documents,
       with appropriate language explaining the requirement that we be notified where funds are, or are suspected
       of, being spent fraudulently, wastefully, or otherwise abused.

Provided below are some examples of weaknesses in grant monitoring which have root causes related to
the issues previously discussed.

   •   Research funds were provided to a local economic development council to study the feasibility of
       a railroad’s revitalization. None of the four interim reports were sent to ARC, although a copy of
       the contract with the researcher was provided. In addition, the final report was written by the
       contractor (directed to the grantee and ARC), and contained the results of the study but was
       missing some key information that only the grantee could supply. The Project Coordinator made
       no request to obtain the missing reports. The grantee’s original proposal provided that the research
       report could be the impetus to seek funding from various sources to revitalize the rail and increase
       industry and jobs. But since there was no final report from the grantee, the “game plan” for the
       next phase of the railroad’s revitalization and how the research is to be utilized remains unknown.

   •   ARC in conjunction with other grantors, initially provided funds for a four year grant to be used
       for guaranteeing and therefore encouraging loans to fund underserved businesses in designated
       rural counties. Numerous reports and correspondence flowed into ARC’s files from the grantee,
       but few notes were prepared to document the coordinator’s phone calls, reviews, interpretations,
       and courses of action selected. Outgoing written correspondence was also sparse.
       The Project Coordinator did seek additional information at different junctures, did question (and
       later deny) guarantees of improper loans, did note the need for a deobligation of funds, and
       recommended only a 12 month extension of a grant, when the grantee was initially seeking a 24
       month extension. On the other hand, it took almost 4 months to resolve the guarantee issue of
       some questioned loans and that in the initial four year period of performance (3 year and 11
       months), only 15% of grant funds were expended for the program’s loan guarantees, and yet a one
       year extension to the period of performance was still granted.
       It would appear that the Coordinator could have been much more pro- active in seeking earlier
       deobligation of funds and/or more involved in providing assistance to the grantee to overcome


                                                            ~ 7 ~ 
         project problems of a competing loan program from SBA and problems of marketing loans to rural
         venues.12

     • In a distance learning program where ARC provided funding for computer labs, no equipment
       purchased list was required by the Coordinator to monitor the grantee's activities. Grantees are
       required to track equipment for their own records, so requiring an equipment purchased list should
       have placed no additional burden on the grantee and where the purpose of a grant is for equipment,
       a listing of equipment should be required.
         Our concern was whether equipment was properly purchased; a second essentially identical grant
         was approved to the same grantee, the situation lending itself to obscuring activities. For
         resolution of this matter, we contacted our contract auditor, who had been doing work at the
         grantee’s office, and we were assured that equipment had been purchased for both grants.

We reviewed OMB’s grantee and sub-grantee requirements, ARC rules and contracts, and best practices to
understand grant paperwork requirements and the monitoring process. The monitoring process requires
the involvement of the coordinator to ensure grants meet established project goals carried out in
accordance with the grant agreement, OMB requirements, and other federal rules. The grant files should
provide for orderly systematic storage and documentation relating to key decisions affecting the grant and
the results of monitoring activity. Documents and documentation normally include: the grant application/
origination documentation, monitoring plans, requests for fund disbursements with appropriate reviews
and approvals, status reports with documented analysis, site visit review results, miscellaneous documents
of communications, final reports with documented analysis, and other close-out documentation, et cetera,
all prepared in a timely fashion.

A brief summary of minimal grant monitoring requirements taken from Circular A-102 (although only
regulatory for continuing assistance awards) states that, “Federal agencies shall reconcile continuing
awards at least annually and evaluate program performance and financial reports.” Circular A-102’s
reconciliation requirements include:

(1) A comparison of the recipient's work plan to its progress reports and project outputs,
(2) The Financial Status Report (SF-269),
(3) Request(s) for payment,
(4) Compliance with any matching, level of effort or maintenance of effort requirement, and
(5) A review of federally-owned property (as distinct from property acquired under the grant).

We believe the above monitoring requirements are a good starting point and represent the basics of OMB
requirements for all grant awards (regardless of regulatory applicability). Most of ARC's grantees do
provide documents appropriate for analyses. However, the adequacy of ARC’s analysis could not be
determined. Except in a few instances, coordinators do not systematically or uniformly document the
results of their reviews and no standard review forms are utilized; instead, we had to try to piece together
the results of grant monitoring from notations, e-mails, phone notes, etcetera,. Accordingly, we believe
that ARC should implement appropriate policies for uniformity and to address the aforementioned
documentation weaknesses.


12
  The grantee’s final report noted that emphasis was being put on targeting rural counties, yet 60% of lending still occurred in  
urban counties. The grantee, effective July15, 2007, ceased to accept loans from urban areas.
                                                                   ~ 8 ~ 
The findings described above indicate the need for much more involved policy guidance, supervision, and
training. Federal funds are being provided to ARC for programs to improve conditions in Appalachia. It is
ARC’s management responsibility to ensure that programs funds are expended as approved and desired
results are achieved. Monitoring plans, site visit planning, site visits as opposed to “meet and greet”
visits,” and timely receipt and documented reviews of reports are needed. Only through management’s
administration of adequate policies and continued supervision, can assurance of program success be
obtained.


Finding 2- Reporting and Tracking of Program Results
Beginning in 1993 with GPRA, the Government Performance Results Act, and later with OMB's Program
Assessment Rating Tool in 2002, the federal government, in order to improve accountability and use of
resources, instituted measures that required federal agencies to develop strategic plans. All program
activities were to be undertaken to help the agency attain its goals which resulted in a requirement that
individual program benchmarks be developed which would be measurable and support the attainment of
the broader agency goals.

ARC has implemented compliance measures in accordance with GPRA and OMB notes, “ARC has made
significant strides in developing outcome- oriented performance measures...” Most grant activities now
include, with each grant approval, desired grant outputs and outcomes (metrics) which are recorded and
tracked. The grantee is also required to submit its program results. ARC aggregates the reported grantee
results and compares them to established agency goals. The results are then reported to Congress and
OMB, and utilized internally for management decision making. ARC has laid the foundation for effective
reporting and decision making but problems were found to exist.

ARC's approved metrics do not always measure the results of activities for which funds were approved or
are not always reflective of the specific goals established for the Commission. For example, where funds
are made available to lay water pipe, an appropriate metric might be the number of housing units
constructed or the number of units served or the amount of pipe feet laid. The issue of how this
information is reported by the Commission against its overall goals, and whether the Commission is really
obtaining the correct information is beyond the scope of this inspection and will be the focus of an
upcoming audit. General observations and the issues of metric reporting as it relates to this inspection are
discussed below.

From our selected sample, we found pervasive errors in the establishment and recording of metric data.
Metrics reported by the grantee are not always the same as those established in the Federal Co-chair’s
approval memo. Sometimes the grantee provides additional metric results, which may or may not be
entered into the grant management system, and sometimes the approved metrics were not reported by the
grantee. Also, metrics established in ARC.net were sometimes different than the metrics approved, or no
metric was recorded in ARC.net at all, or no metrics were established despite the approval memo stating
that metrics were to be developed by or through the coordinator.

Another concern about ARC’s reported metrics, were that metric results were sometimes recorded in the
wrong place. For example, outputs were recorded as outcomes. Also, for one grant, the reported metric
was recorded un-annualized when annualization was necessary. For this year, we were told metrics
entered were being checked against the metrics approved in the Federal Co-chair’s memos, which should
help alleviate some of these problems. LDD and/or technical assistance grants often do not have metrics
                                                   ~ 9 ~ 
quantified. However, according to the LDD Director, the metric information is now being requested from
grantees.13 However, metrics and results are still are not being recorded in the ARC.net system and there
is no flow-up for Commission-wide reporting. The LDD Director believes that with a little training an
administrative person could be taught to enter this data into ARC.net. Because of the relatively large size
of this program (12 % of all ARC monitored grant dollars outstanding at the end of Fiscal Year 2008), we
feel it is important to obtain LDD results for the Commission's reporting.

In addition to metric reporting issues, we noted that ARC has not required (only recommends) the usage
of a standard narrative reporting format. The lack of a required narrative reporting format causes wide
variation in the way reports are presented by grantees. A standard reporting format would help to promote
complete data reporting and simplify the review process. Also, support is provided for an agency
mandated narrative reporting format in OMB’s new reporting form, which is discussed in detail below.

ARC metric reporting processes have established the foundation for evaluating ARC-wide grant program
results. However, weaknesses were noted in the way metrics were established, reported on and recorded.
Management decisions based upon poor design of metrics and/or faulty reporting of results could cause
inadvertent mistakes in federal reporting and decision making. Management needs to develop metrics
which can be readily tracked and require proper reporting. In addition, grantee narrative reporting
continues to be unstructured but could be improved by requiring the use of a standardized reporting
format.



Finding 3- File Documentation, Organization and Storage
OMB's administrative grant requirements provide that federal grant making entities use prescribed
procedures and forms for applications and for other activities. ARC's grant contracts and handbooks
further define the type of documents and reporting requirements for grantees.

ARC grantees usually apply for grants using some type of standard forms, coupled with a narrative
proposal of the project, its goals, the cost, and expected results. Coordinators review the proposals and
make suggestions to grantees and/or recommendations to management for approval (or disapproval) of
grants. If management is in agreement with a coordinator's approval recommendation, a written
approval notice is generated and the grant contract is issued. A significant amount of documentation is
often generated during the application and approval phase of the grant process. Following the approval of
the grant, monitoring begins.

During monitoring activities, the Coordinator documents his interaction with the grantee, which provides
a record of problems, approved resolutions, and a historical record of what was done. In addition, the
documentation supports that ARC and the coordinator are properly performing their oversight of federal
funds and other responsibilities. However, because of weaknesses in ARC's documentation, we were not
always able to determine the appropriateness of oversight. For example, we could not always determine:

1) if a document was a required document, such as a status reports sent as an e-mail;

13
       One concern for ARC is how to develop appropriate metrics for LDD programs when grant funds are being provided for general  
support or as a staffing subsidies, et cetera. Although previously a problem, metric reports are now being requested from LDDs, so this  
may no longer be at issue. In addition, one Pennsylvania LDD has developed a computerized system for capturing metric data, which  
could perhaps be adapted to the needs of other LDDs. 
                                                                  ~ 10 ~ 
2) who created or edited the document;
3) the date of document creation (or the date of change);
4) the finality of the document- were there other relevant and/or superseding documents/correspondence;
   and;
5) the applicable period to which the document applied.

The questions above resulted from missing information, e.g., document titles, grantee and coordinator
signatures/initials, and related notes, which are needed to indicate who edited a document and whether the
edit was authorized by the grantee. Also, in several instances, multiple versions of documents were
retained that may have (or not have) had different dollar amounts, the same or different reference
numbers, different signatures, and different periods of applicability, et cetera. Numerous report submittals,
both financial and narrative, were not submitted within the time lines established by the grant agreement
and were late. In many cases little to no effort was exhibited to obtain the delinquent report, and many
delinquent reports were accepted without fanfare or consequences, further encouraging delinquency14.

During our review of grant documents, we had difficulty determining if grant reports were submitted
timely, whether funds were properly expended during the contractual period of performance, and whether
extensions were granted prior to the expiration of the grant. Also, we could not determine whether
appropriate individuals were requesting funds for the proper amounts and whether changes made to the
grant reports and other documents were requested and/or appropriate.

In addition, we noted that ARC has not utilized the OMB mandated Performance Progress Report (SF-
PPR) used by federal grant making agencies, 15 which might have helped resolve some of the
aforementioned deficiencies. See Appendix B. The SF-PPR requires reporting to be completed at least
annually, “on a quarterly, semi-annual, or annual basis, as directed by the awarding federal agency in its
award document.” We believe the reporting cycles should correspond to the natural activity or business
cycle of the grantee. ARC's LDD director agreed as he described the difficulty in obtaining reports; some
grantees have to create two financial reports, their normal financial report for their business cycle and one
for ARC. This was also mentioned in a GAO report16 to the Congress which discussed the difficulties of
efforts to streamline federal grants management. The report stated:
          Grantees also identified other inefficiencies that continue to limit the effectiveness of grant programs,
          particularly federal procedures that do not consider the manner in which grantees conduct their grant
          administration. For example, when federal processes are not aligned with typical grantee business practices,
          key documents do not flow back and forth from the federal grantor agency and grantees in an efficient manner.

Because of the importance of documentation in providing for effective oversight of grants, ARC's file
organization needs to be improved to provide for efficient retrieval of documents and to ensure documents
received or originated are properly maintained.


14
     The POD Director said that this problem has mostly been resolved by ARC’s grant management system which now automatically  
generates notices reminding grantees when reports are due and overdue.  
 
15
         OMB adopted the standard progress reporting form in November 2007. The form is located on the Whitehouse website at,  
http://www.whitehouse.gov/omb/grants/approved_forms/sf‐ppr.pdf .  In addition there are six standard form appendices (A‐F),  
including: performance measures, program indicators, benchmark evaluations, table of activity results, activity based expenditures, and 
program/project management. All SF‐PPR appendices can be located at  http://www.whitehouse.gov/omb/grants_forms/ . 
 
16
       GAO, Report to Congress, Grants Management: Grantees Concerns with Efforts to Streamline and Simplify Processes,GAO‐06‐566 (July, 
2006) http://www.gao.gov/new.items/d06566.pdf.   
                                                                 ~ 11 ~ 
POD Management has provided guidance which requires that coordinators place certain documents on
one side of the file and other documents on the other side of the file, ordered chronologically with some
sections tabbed by “post-it-notes.” ARC grant file folders are simple two sided folders- they are made of
a continuous sheet of a thin cardboard (the thickness of 5 or 6 sheets of paper) with a folded center and a
single tab on one side. The folders are inadequate for maintaining most of the grant files we reviewed-
they neither have the capacity or the appropriate partitions needed. In addition, coordinators do not always
arrange the files according to management's guidance, file tabs fall off ( the post-it-notes), legal size pages
are not folded and cover tabs, there are no indexes, documents are unattached- loose in the folder,
unnecessary copies of documents are retained, and sometimes files contain continuation of grants which
have separate grant contracts and should have their own folders. See Exhibit below.




We could not locate documents and/or had difficulty following the flow of the documents. While meeting
with one of the grant managers, it became evident that he too had difficulty locating documents within his
own file. From our observations, we believe that grant oversight could be greatly enhanced by instituting
an electronic filing system. However, if an electronic filing system proves infeasible to implement, then
some type of grant activity log (ARC.net could easily be modified) to track events, discussions, and
receipt of documents should be developed and a multi-tabbed file folder and/or an index should be
utilized. The inability to track documents within a grant folder obscures the adequacy of fiduciary
oversight of funds and could become an impediment to legal action should it ever need to be taken against
a grantee.

ARC maintenance of files is also of concern. ARC's grant offices maintain their files in file storage areas
that are neat, organized and well kept. However, access to the file rooms is unrestricted, and the “honor
system” provides the only file control.17 During the course of the year, we received at least three phone
calls from POD in which they were looking for files and we have received two emails from the General
Counsel’s office regarding a missing box of files and individually missing files. In addition, aside from a
recently installed sprinkler system, there are no adequate safeguards against fire loss, and we question the
adequacy of a sprinkler system for fire protection of paper documents. ARC does have backup grant
folders but they are not kept current after the filing of the initial application and approval documents.
Also, fireproof file cabinets are not in use. Management, when asked about file security responded, access
to the entire inner office is restricted (the office doors are locked) and only janitorial and POD staff have

17
     Some POD staff members (at least one) maintain their grant files on a permanent basis in their offices. 
                                                                  ~ 12 ~ 
access afterhours. These security measures address after hour’s access to files but not file control and
access during work hours. Management needs to evaluate and ensure that proper file control, backup, and
fire safeguards are in use.

File documentation, organization and storage are an essential component of grants management. We
noted need for improvement in the way grant documents were obtained, annotated and otherwise
maintained. A grant file needs to tell and document the story of a project’s progress, successes and
failures. In addition, it is vital that management develop an ability to protect its grant files from fire and
other loss risks. ARC management needs to establish policies that address the weaknesses described
above and provide more supervision to the file documenting and storage processes.


Finding 4- Other Matters

OMB’s Prior Attachments to Circular A-102
As discussed above, ARC has not implemented the presidentially mandated adoption requirement for the
PA (the grants management common rule (GMCR)), which contain administrative requirements for state
and local governments. In its place, ARC has addressed various parts of these requirements in its grant
agreements and the Grant Administration Handbook. However, there is no assurance that the language
contained in these sources is fully consistent with the GMCR or that all provisions are adequately
addressed. In ARC’s Grant Administration Handbook ,the grantee is told to use the appropriate OMB
Circular, and Circular A-102 is referenced. Per OMB’s website, “If you as an applicant or grantee are
asked to comply with attachments to Circular A-102, please consult with the grant making agency
regarding the requirements and inform them that their documentation needs to be updated.” 18 While
many agencies, large and small, have codified GMCR,19 we believe, at a minimum, ARC needs to update
its documentation to ensure it fully incorporates the GMCR into its contract documents. ARC’s General
Counsel stated that the mention of A-102 in the above grant documents was meant to incorporate the PA
and that ARC government grantees are long term grant participants and know the GMCR.


Recommendations
         1. We recommend the Executive Director or his designee be made responsible for
            oversight and policy of all ARC grants, and that formalized ARC-wide policies,
            including review and supervisory oversight procedures be instituted to ensure the
            propriety of grants administration.

We recommend the Executive Director or his designee, for all grants and for all coordinators
(except where other noted):

         2. Implement policies requiring the development of written monitoring plans, which
            include consideration of the need to conduct site visits, and for the documentation
            requirements of monitoring activities and the conclusions reached.

18
       Although the Attachment to Circular A‐102, the GMCR, is not specifically mentioned in ARC’s grant agreement, A‐102 is listed as a  
grantee reference document, and the  GMCR or its elements do not appear to be  fully provided for elsewhere.  
 
19
        Appendix C contains a list of federal grant making entities codifying the grants management common rule. 
                                                                  ~ 13 ~ 
3. Provide, at least biennially, training to all grants personnel in the matters of ARC and
   federal grant administrative procedures and requirements.

4. Create and maintain a “lessons learned” database that includes tracking of grantee
   characteristics identified by OMB in the prior attachment to Circular A-102 as “high
   risk.”

5. Develop and implement, using Circular A-102's reconciliation requirements as a
   starting point, a standard report review form in ARC.net to be applied to all interim and
   final grant reports.

6. Require final reports not be accepted until all approved metric results have been
   reported or if results from approved metrics were not reported; require management’s
   consent to accept the report.

7. Work with LDD Director and LDD grantees to develop appropriate metrics and report
   on results of activities in accordance with established ARC goals and objectives.

8. Require all reports, letters, and other grant correspondence be opened and date stamped
   upon receipt.

9. Require all edits and notations made by grants’ personnel, on grantee or coordinator
   originated documents, to describe the purpose of the edit, and to be initialed and dated.

10. Prescribe a final narrative report format to be used by all grantees, similar to the
    recommended attachment to ARC’s Grant Administration Manual.

11. Require the use of OMB’s SF-PPR cover page for all grant reports; review, document
    the review, and adopt the reports optional appendices to supplement all reporting where
    deemed beneficial.

12. Require future grant reporting cycles to correspond to the activity or business cycle of
    the grantee, but in accordance with OMB’s SF- PPR instruction number three, .e.g.,
    interim reporting shall be quarterly, March 31st, June 30th, September 30th, or
    December 31st.

13. Ensure that ARC coordinators only accept reports, both financial and narrative, with
    reporting periods corresponding to those specified in the grant contract.

14. Implement a policy for the electronic organization and digitization of grant file
    documents. Alternatively, if the computerization of the filing system proves infeasible
    or in the interim, adopt a multi-tabbed file folder system, events and documents log,
    and an appropriate indexing system which minimally should provide for well organized
    grant files and easy retrieval of documents.



                                             ~ 14 ~ 
        15. Review file access controls, fire safety protocols, and/or best practices for adoption and
            implementation of policies to track and protect ARC's grant files from theft, fire and
            other loss.

        16. Adopt the grants management common rule, for inclusion as part of ARC’s grant
            agreement, general provisions, and/or codify this section and provide appropriate
            references in all ARC grant contracts.

        17. Review and develop departmental budgets, as part of the annual budget, to ensure
            adequate funding is available to provide for training, on-site visits, supervisory review
            of grant activities, and the additional time needed to properly organize grant files and
            administer other grant activities.


Management Response

Management responded to a draft of our report on July 14, 2008 and overall agreed with 16 of our
17 recommendations; ARC management did not agree to appoint a manager to be responsible for
all grant oversight and grant policy. Management specifically disagreed that adequate supervisory
oversight procedures were not in place and commented, “…the intense daily interaction between
management personnel and staff relating to issues of grants management are highly effective…”
and that, “… supervision of project coordinators is the responsibility of the respective division
directors… [and should not be revised].” Management directed the creation of a grants
management manual to address identified problems in our report but stated that they may develop
their own solutions for problem resolution, which could differ from the recommendation made in
the report.

The entirety of management’s response in provided Appendix D.


Office of Inspector General Comments

We consider management’s responses adequate and the all recommendations resolved, except for
recommendation 1, which asks in part, that a management official be assigned to oversee grant
activity and policy. Although the recommendations are considered resolved, we will be initiating
follow-up work upon policy adoption and implementation to ensure the appropriateness of
solutions implemented.

Management believes that the interaction between project coordinators and managers provides
highly effective oversight, and that may be the case for the Program Operations Division.
Unfortunately, because of the lack of documentation concerning management interaction with
staff, an important component for verification of appropriate fiduciary actions, we cannot state
whether or not supervision is appropriate or effective. For the Regional Planning and Research
Division and for Local Development District grants,20 as cited earlier in the report, we do not find

20
   Only a single director oversees grant administration to LDDs. We found no other management official conducting
supervisory reviews of the director’s grant monitoring activities.
                                                             ~ 15 ~ 
management oversight being provided. Accordingly, we are hopeful that management addresses
these issues during the creation of its grants manual, and we plan additional verification work in
this area.

Furthermore, although management generally agreed with our recommendations, they stated that
they may come up with its own solutions, which could be different than ours. We have no
contention with management’s substitute solutions; it is always in the purview of management to
direct its own operations. In addition, management stated plans to consult the Management
Framework: Award Monitoring by the Office of the Inspector General of the National Science
Foundation, OIG 03-2-01, September 30, 2003. However we believe this report, by itself, does not
contain enough specificity for the development of an appropriate grants manual and it does not
contain recent federal requirements. In order to achieve a current and balanced reference pool of
grant management policies and practices, we urge the utilization of multiple sources of reference
for ARC policy development. In addition, we remind management that our report contains federal
requirements, best practices, and common sense fixes to address ARC’s particular weaknesses.




                                                   ~ 16 ~ 
Appendix A
2/18/2009                                     Audit Report
      Monitoring by the Bureaus and Program Offices

      The five bureaus and two program offices are also responsible for monitoring grantees
      and related activities, and documenting the results in the grant manager’s program files
      and the OC’s official grant files. The bureaus and program offices conduct monitoring to
      ensure:

            Compliance with relevant statutes, regulations, policies, and guidelines;

            Responsible oversight of awarded funds;

            Implementation of required programs, goals, objectives, tasks, products, timelines,
            and schedules;

            Identification of issues and problems that may impede grant implementation; and

            Adjustments required by the grantee as approved by the OJJDP and the BJA.

      The grant managers’ primary responsibility is project monitoring. Each grant manager
      prepares a monitoring plan or Grant Manager’s Memorandum (GMM). The GMM is an
      evolving document used throughout the life of a grant to ensure that goals and
      objectives are being met and that activities and products are completed in a timely
      fashion. The level of monitoring required is based upon the stated monitoring plan in the
      GMM, which includes:

            An overview of the project;

            A detailed description of what type of activities the grantee plans to implement;

            A discussion of past monitoring activities and assessments, if the grant is a multi-
            year grant that is awarded yearly;

            An identification of monitoring activities to be performed for the current project
            period; and

            A discussion of the financial justification for the grant funds and of the cost-
            effectiveness evaluation of the application.

      The OJP has given monitoring priority to sites in which problems have been identified,
      implementation has been problematic, or where the grantee has specifically requested
      technical or other assistance. In addition to on-site visits, grant managers conduct
      periodic desk reviews and monitor grants telephonically. Monitoring may also be
      conducted as part of conferences and cluster meetings with grantees.

      Telephonic and/or e-mail monitoring is done to communicate time-sensitive information,
      or when on-site visits are not feasible. The Grant Manager compiles a list of issues and
      familiarizes him or herself with the objectives of the grant. The Grant Manager then
      arranges a scheduling of calls to project and grantee staff to document and resolve
      issues and/or assess the implementation status of a project, according to stated
      objectives and time lines.

      Frequency of Monitoring

       Federal grant management entails both program management and financial management.
       For the TA&T grants that we reviewed, these responsibilities were split between the OC,
       which is responsible for financial management, and the respective bureaus, which are
       responsible for program management. According to the OJP grant managers whom we
usdoj.gov/oig/reports/OJP/…/app12.htm                                                              2/3
Appendix B
                                                                                                                                    Print Form


                                        PERFORMANCE PROGRESS REPORT
                                                 SF-PPR

                                                                                                  Page          of
                                                                                                                Pages
1.Federal Agency and Organization Element to         2. Federal Grant or Other Identifying        3a. DUNS Number
Which Report is Submitted                            Number Assigned by Federal Agency
                                                                                                  3b. EIN

4. Recipient Organization (Name and complete address including zip code)                          5. Recipient Identifying Number
                                                                                                  or Account Number




6. Project/Grant Period                                          7. Reporting Period End Date     8. Final Report?     Yes
                                                                                                                       No
Start Date: (Month, Day, Year)   End Date: (Month, Day, Year)    (Month, Day, Year)               9. Report Frequency
                                                                                                       annual           semi-annual
                                                                                                       quarterly        other
                                                                                                   (If other, describe: __________
                                                                                                  __________________________)


10. Performance Narrative           (attach performance narrative as instructed by the awarding Federal Agency)




11. Other Attachments             (attach other documents as needed or as instructed by the awarding Federal Agency)
12. Certification: I certify to the best of my knowledge and belief that this report is correct and complete
for performance of activities for the purposes set forth in the award documents.
12a. Typed or Printed Name and Title of Authorized Certifying Official                12c. Telephone (area code, number and
                                                                                      extension)

                                                                                      12d. Email Address


12b. Signature of Authorized Certifying Official                                      12e. Date Report Submitted (Month, Day,
                                                                                      Year)

                                                                                      13. Agency use only




                                                                PPR, Page 1
                                                                                                OMB Approval Number: 0970-0334
                                                                                                Expiration Date: 6/30/2009
          Performance Progress Report (PPR) Instructions

The Performance Progress Report (PPR) is a standard, government-wide
performance progress reporting format used by Federal agencies to collect
performance information from recipients of Federal funds awarded under all
Federal programs that exceed $100,000 or more per project/grant period,
excluding those that support research. General instructions for completing the
PPR are contained below. For further instructions on completing the PPR,
please contact the agency’s points of contact specified in the "Agency Contacts"
section of your award document.


Report Submissions

   1. The recipient must submit the PPR cover page and any of the forms (PPR
      A-F), which the Federal agency requires, as specified in the award terms
      and conditions.

   2. The PPR must be submitted to the attention of the agency’s points of
      contact specified in the "Agency Contacts" section of the award document
      in accordance with the requirements established in the award document.

   3. If additional space is needed to support the PPR, supplemental pages
      should be attached. The additional pages must indicate the following at
      the top of each page: Federal Grant or other Identifying Award Number,
      Recipient Organization, DUNS Number, EIN, and period covered by the
      Report. Page numbers should be used if a particular page is used more
      than once.

Reporting Requirements

   1. All recipients of grants or cooperative agreements awarded under all
      Federal programs that exceed $100,000 or more per project/grant period,
      excluding those that support research, are required to submit a PPR in
      accordance with the terms established in the award document.

   2. The PPR must be submitted at least once yearly, on a quarterly, semi-
      annual, or annual basis, as directed by the awarding Federal agency in
      the award document. A final PPR shall be required at the completion of
      the award agreement.

   3. For interim PPRs, the following reporting period end dates shall be used:
      3/31; 6/30; 9/30; and or 12/31. For final PPRs, the reporting period end
      date shall be the end date of the project/grant period.



                                    PPR, Page 2
             4. The frequency of required reporting is stated in the solicitation and award
                documents. Interim PPRs are due not later than 45 days after the end of
                each reporting period. Final PPRs are due not later than 90 days after the
                end of the reporting period end date.




                                      Performance Progress Report
Item       Data Elements              Line Item Instructions for SF-PPR
       1   Awarding Federal agency    Enter the name of the awarding Federal agency and organizational
           and Organizational         element identified in the award document or otherwise instructed by the
           Element to Which Report    agency. The organizational element is a sub-agency within an awarding
           is Submitted               Federal agency.
       2   Federal Grant or Other     Enter the grant/award number contained in the award document.
           Identifying Number
           Assigned by the awarding
           Federal agency
  3a       DUNS Number                Enter the recipient organization's Data Universal Numbering System
                                      (DUNS) number or Central Contract Registry extended DUNS number.

  3b       EIN                        Enter the recipient organization's Employer Identification Number (EIN)
                                      provided by the Internal Revenue Service.

       4   Recipient Organization     Enter the name of recipient organization and address, including zip code.

       5   Recipient Account          Enter the account number or any other identifying number assigned by the
           Number or Account          recipient to the award. This number is strictly for the recipient's use only
           Number                     and is not required by the awarding Federal agency.
       6   Project/Grant Period       Indicate the project/grant period established in the award document during
                                      which Federal sponsorship begins and ends. Note: Some agencies award
                                      multi-year grants for a project/grant period (e.g., 5 years) that are funded
                                      in increments known as budget periods or funding periods. These are
                                      typically annual increments. Please enter the project/grant period, not the
                                      budget period or funding period.
       7   Reporting Period End       Enter the ending date of the reporting period. For quarterly, semi-annual,
           Date                       and annual reports, the following calendar quarter reporting period end
                                      dates shall be used: 3/31; 6/30; 9/30; and or 12/31. For final PPRs, the
                                      reporting period end date shall be the end date of the project/grant period.
                                      The frequency of required reporting is usually established in the award
                                      document.
       8   Final Report               Mark appropriate box. Check “yes” only if this is the final report for the
                                      project/grant period specified in Box 6.

       9   Report or Frequency        Select the appropriate term corresponding to the requirements contained
                                      in the award document. “Other” may be used when more frequent
                                      reporting is required for high-risk grantees, as specified in OMB Circular A-
                                      110.
  10       Performance Narrative      Attach performance narrative as instructed by the awarding Federal
                                      agency.
  11       Other Attachments          Attach other documents as needed or as instructed by the awarding
                                      Federal agency.




                                                   PPR, Page 3
                                    Performance Progress Report
Item    Data Elements               Line Item Instructions for SF-PPR
Remarks, Certification, and Agency Use Only

 12a    Typed or Printed Name       Authorized certifying official of the recipient.
        and Title of Authorized
        Certifying Representative
 12b    Signature of Authorized     Original signature of the recipient's authorizing official.
        Certifying Official
 12c    Telephone (area code,       Enter authorized official's telephone number.
        number and extension)
 12d    Email Address               Enter authorized official's email address.

 12e    Date Report Submitted       Enter date submitted to the awarding Federal agency. Note: Report must
        (Month, Day, Year)          be received by the awarding Federal agency no later than 90 days after
                                    the end of the reporting period.
   13   Agency Use Only             This section is reserved for the awarding Federal agency use.




                                                  PPR, Page 4
Appendix C
Codification of Governmentwide Grants Requirements
by Department

Click here to be connected to the Code of Federal Regulations (CFR)
                          Grants            OMB Circular A-                                             Byrd Anti-
                                                                  Nonprocurement         Drug-Free
                       Management           110 (universities                                           Lobbying
 Department                                                         Suspension &        Workplace
                      Common Rule             & non-profit                                            Amendment
 (See Note 1)                                                      Debarment(See        Act common
                      (State & Local         organizations)                                           common rule
                                                                       Note 3)              rule
                      Governments)            (See Note 2)                                             (See Note 4)
Agriculture      7 CFR 3016                 7 CFR 3019           7 CFR 3017             7 CFR 3021   7 CFR 3018
Commerce         15 CFR 24                  15 CFR 14            2 CFR 1326             15 CFR 29    15 CFR 28
Defense          32 CFR 33                  32 CFR 32            2 CFR 1125             32 CFR 26    32 CFR 28
Education        34 CFR 80                  34 CFR 74            34 CFR 85              34 CFR 84    34 CFR 82
Energy           10 CFR 600                 10 CFR 600           2 CFR 901              10 CFR 607   10 CFR 601
Health &
Human            45 CFR 92                  45 CFR 74            2 CFR 376              45 CFR 82    45 CFR 93
Services
Housing &
Urban            24 CFR 85                  24 CFR 84            24 CFR 24              24 CFR 21    24 CFR 87
Development
Interior         43 CFR 12                  43 CFR 12            2 CFR 1400             43 CFR 43    43 CFR 18
Justice          28 CFR 66                  28 CFR 70            2 CFR 2867             28 CFR 83    28 CFR 69
Labor            29 CFR 97                  29 CFR 95            29 CFR 98              29 CFR 94    29 CFR 93
State            22 CFR 135                 22 CFR 145           2 CFR 601              22 CFR 133   22 CFR 138
Transportation   49 CFR 18                  49 CFR 19            49 CFR 29              49 CFR 32    49 CFR 20
Treasury         --                         --                   31 CFR 19              31 CFR 20    31 CFR 21
Veterans
                 38 CFR 43                  --                   2 CFR 801              38 CFR 48    38 CFR 45
Affairs



Codification of Governmentwide Grants Requirements by Agency
                     Grants     OMB Circular A-                                                         Byrd Anti-
                                                                 Nonprocurement
                  Management    110 (universities                                   Drug-Free           Lobbying
   Agency                                                         Suspension &
                 Common Rule      & non-profit                                     Workplace Act      Amendment
 (See Note 1)                                                    Debarment (See
                 (State & Local  organizations)                                    common rule        common rule
                                                                     Note 3)
                 Governments)     (See Note 2)                                                         (See Note 4)
ADF              --                    --                   22 CFR 1508            22 CFR 1509       --
AID              --                    22 CFR 226           22 CFR 208             22 CFR 210        22 CFR 227
BBG              --                    22 CFR 518           22 CFR 513             --                22 CFR 519
CNCS             45 CFR 2541           45 CFR 2543          45 CFR 2200            45 CFR 2545       --
EPA              40 CFR 31             40 CFR 30            2 CFR 1532             40 CFR 36         40 CFR 34
EX-IM            --                    --                   2 CFR 3513             --                12 CFR 411
FEMA             44 CFR 13             --                   29 CFR 1471            --                44 CFR 18
FMCS             29 CFR 1470           --                   29 CFR 1471            29 CFR 1472       --
GSA              41 CFR 105-71         41 CFR 105-72        41 CFR 105-68          41 CFR 105-74     41 CFR 105-69
IMS              45 CFR 1183           --                   45 CFR 1185            45 CFR 1186       --
IAF              --                    --                   22 CFR 1006            22 CFR 1008       --
NASA             14 CFR 1273           14 CFR 1260          2 CFR 180              14 CFR 1267       14 CFR 1271
NARA             36 CFR 1207           36 CFR 1210          2 CFR 2600             36 CFR 1212       --
NEA              45 CFR 1157           --                   2 CFR 3254             45 CFR 1155       45 CFR 1158
NEH              45 CFR 1174           --                   2 CFR 3369             45 CFR 1173       45 CFR 1168
NSF              45 CFR 602            --                   2 CFR 2520             45 CFR 630        45 CFR 604
ONDCP            21 CFR 1403           --                   21 CFR 1404            21 CFR 1404       --
OPM              --                    --                   5 CFR 919              --                --
OPIC             --                    --                   --                     --                22 CFR 712
Peace Corps      --                    --                   22 CFR 3700            22 CFR 312        22 CFR 311
SBA         13 CFR 143   --         13 CFR 145    13 CFR 147   13 CFR 146
SSA         --           --         2 CFR 2336    20 CFR 439   --
TVA         --           --         --            --           18 CFR 1315



NOTES:

      1. Abbreviations used for the following independent agencies:

                 African Development Foundation (ADF),
                 Agency for International Development (AID),
                 Broadcasting Board of Governors (BBG), Corporation for National & Community
                 Service (CNCS),
                 Environmental Protection Agency (EPA),
                 Export-Import Bank of the United States (EX-IM),
                 Federal Emergency Agency (FEMA),
                 Federal Mediation & Conciliation Service (FMCS),
                 General Service Administration (GSA),
                 Institute of Museum Services (IMS),
                 Inter-American Foundation (IAF),
                 National Aeronautics & Space Administration (NASA),
                 National Archives & Records Administration (NARA),
                 National Endowment for the Arts (NEA),
                 National Endowment for the Humanities (NEH),
                 National Science Foundation (NSF),
                 Office of National Drug Control Policy (ONDCP),
                 Office of Personnel Management (OPM),
                 Overseas Private Investment Corporation (OPIC),
                 Small Business Administration (SBA), Tennessee Valley Authority (TVA), and
                     
 
 
 
 
 
                    Appendix D 
